         DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                               Office of Inspector   ~eneral




                                                                                               Washmgton, D.C. 20201


                                                     JUL 08 20U



TO: 	                Donald M. Berwick, M.D.
                     Administrator
                     Centers for Medicare & Medicaid Services

                                     /S/
FROM:                Stuart Wright
                     Deputy Inspector General
                       for Evaluation and Inspections


SUBJECT: 	 Early Alert Memorandum Report: Changes in Skilled Nursing Facilities
           Billing in Fiscal Year 2011, OEI-02-09-00204


This memorandum report presents our results to date regarding skilled nursing facilities
(SNF) billing in fiscal year (FY) 2011. Specifically, this report describes the extent to
which billing by SNFs changed from the last half of FY 2010 to the first half of FY 2011 .
This memorandum report is a followup to an earlier Office of Inspector General (OIG)
report.! In that report, 01U found that Medicare payments to SNFs increased from 2006
to 2008, even though beneficiary characteristics remained largely unchanged.
Specifically, payments to SNFs for the highest level of therapy increased by nearly
90 percent from 2006 to 2008, rising from $5.7 billion to $10.7 billion. Billing for high
levels of assistance with ADLs also increased.

SUMMARY

The Centers for Medicare & Medicaid Services (CMS) made a number of changes to the
SNF payment system that became effective at the beginning of FY 2011. In particular,
CMS changed how SNFs bill for concurrent therapy. CMS expected this change to
decrease billing for higher levels of therapy. Because CMS did not intend to decrease
overall payments to SNFs, it increased the payment rates for therapy. CMS also changed
how SNFs bill for extensive services, such as tracheostomy care, and for assistance with
beneficiaries' activities of daily living (ADL).

Although CMS intended the FY 2011 changes to be budget neutral, Medicare payments
increased by $2.1 billion, or 16 percent, from the last half of FY 2010 to the first half of
FY 2011. Contrary to CMS' s expectations, in the first half of FY 2011, SNFs billed for
higher levels of therapy and for very little concurrent therapy. These unanticipated
billing patterns contributed to the overall increase in payments. At the same time, several

1 OIG,   Questionable Billing by Skilled Nursing Facilities, OEI-02-09-00202, December 2010.



OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 2 – Donald M. Berwick, M.D.


of CMS’s changes reduced billing for certain higher-paying groups. Between the last
half of FY 2010 and the first half of FY 2011, billing decreased slightly for therapy
overall. Billing for extensive services and for high levels of assistance with ADLs also
decreased.

The data indicate that CMS should adjust payment rates to address the significant
increases in payments to SNFs. The data also show that CMS should make changes to
how SNFs account for group therapy. Lastly, the data highlight the need for further
changes to make Medicare payments more consistent with beneficiaries’ care and
resource needs.

We plan to conduct a full review of SNF billing at the end of FY 2011 and may issue
formal recommendations to CMS at that time. However, based on the data in this report,
CMS should take immediate action. CMS has proposed a number of changes to the SNF
payment system and will issue a final rule for FY 2012. CMS should use this opportunity
to address the issues identified in this memorandum report.

BACKGROUND

The Part A SNF benefit covers skilled nursing care, rehabilitation services (i.e., physical,
occupational, and speech therapy), and other services for up to 100 days during any spell
of illness. 2 To qualify, the beneficiary must need skilled services daily in an inpatient
setting and must require the skills of technical or professional personnel to provide these
services. 3

Medicare pays SNFs under a prospective payment system. During a Part A stay, SNFs
classify beneficiaries into groups based on their care and resource needs. These groups are
called resource utilization groups (RUG). SNFs use an assessment known as the Minimum
Data Set (MDS) to classify beneficiaries into RUGs. 4 The MDS assesses the beneficiary’s
clinical condition, functional status, and expected use of services. SNFs must conduct these
assessments on or about the 5th, 14th, 30th, 60th, and 90th days of a Part A stay, as well on
certain other occasions to account for changes in the beneficiary’s care needs. 5
Accordingly, if a beneficiary has a 100-day Part A stay, he or she will have at least five
assessments. For each assessment, the beneficiary is categorized into a RUG. A
beneficiary may be categorized into different RUGs during his or her stay.




2
  Social Security Act, §§ 1812(a)(2)(A) and 1861(h); 42 U.S.C. §§ 1395d(a)(2)(A) and 1395x(h).
3
  42 CFR §§ 409.30 and 409.31.
4
  The MDS is part of CMS’s Resident Assessment Instrument (RAI). CMS, Long-Term Care Facility Resident
Assessment Instrument User’s Manual, ver. 3.0 (RAI Manual 3.0), Sept. 2010, §§ 1.2 and 1.3.
5
  42 CFR § 413.343(b) and CMS, RAI Manual 3.0, § 2.8. CMS requires other comprehensive resident assessments at
certain times as a condition of participation, which may be combined with MDS payment assessments when the
timeframes coincide. See 42 CFR § 483.20 and RAI Manual 3.0, §§ 2.6 and 2.11.



OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 3 – Donald M. Berwick, M.D.


Types of RUGs
Each RUG has a different Medicare per diem payment rate. Beginning in FY 2011, CMS
increased the number of RUGs from 53 to 66. Medicare groups these 66 RUGs into eight
distinct categories. Two categories—Rehabilitation and Rehabilitation Plus Extensive
Services—are for beneficiaries who need physical therapy, speech therapy, or occupational
therapy, typically to recover from an event such as a hip fracture or a stroke. In this report,
we refer to the RUGs in the two therapy categories as therapy RUGs.

The remaining six categories are for beneficiaries who require very little or no therapy. We
refer to the RUGs in these six categories as nontherapy RUGs. These categories are
Extensive Services, Special Care High, Special Care Low, Clinically Complex, Reduced
Physical Function, and Behavioral Symptoms and Cognitive Performance. See Appendix A
for information about all RUGs in FY 2010 and FY 2011.

Medicare Payments for Therapy
Medicare payment rates for therapy RUGs are more than 1½ times higher, on average, than
the rates for nontherapy RUGs. 6 Additionally, within the therapy RUGs, Medicare
generally pays more for higher levels of therapy.

The therapy RUGs are divided into five levels of therapy: ultra high, very high, high,
medium, and low. The SNF categorizes a beneficiary into one of the five therapy levels
based primarily on the number of minutes of therapy provided during a 7-day assessment
period. 7 For example, if the beneficiary received 45 minutes of therapy during the
assessment period, he or she is categorized into a low therapy RUG, whereas if the
beneficiary received 720 minutes, he or she is categorized into an ultra high therapy RUG.
Medicare generally pays the most for ultra high therapy. In FY 2011, the average per diem
rate for the ultra high therapy RUGs is $699, compared to $430 for low therapy RUGs.

Beneficiaries in a Part A stay can receive three different types of therapy:

     •    individual, in which the therapist works with only one beneficiary;
     •    concurrent, in which the therapist works with two beneficiaries at the same time
          using different treatments; and
     •    group, in which the therapist works with two to four beneficiaries at the same
          time using similar treatments.

Beginning in FY 2011, SNFs were required to divide concurrent therapy minutes among
beneficiaries when determining each beneficiary’s RUG. 8 For example, when two
6
  OIG analysis of FYs 2010 and 2011 unadjusted per diem urban rates. There is an urban and a rural payment rate for
each RUG. The urban payment rates are generally lower than the rural rates for therapy RUGs. See
74 Fed. Reg. 40288, 40298–40300 (Aug. 11, 2009) and 75 Fed. Reg. 42886, 42894–42895, 42897–42899
(Jul. 22, 2010).
7
  CMS, RAI Manual 3.0, § 6.6. In addition to the minutes of therapy provided, SNFs must use other criteria to
categorize a beneficiary into a therapy RUG, such as how often certain nursing services are provided.
8
  74 Fed. Reg. 40288, 40315–40319 (Aug. 11, 2009) and CMS, RAI Manual 3.0, § 6.6 and ch. 3, § O0400.



OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 4 – Donald M. Berwick, M.D.


beneficiaries receive 60 minutes of therapy concurrently, the SNF counts 30 minutes
when determining each beneficiary’s RUG. 9 In contrast, CMS did not require SNFs to
divide group therapy minutes among beneficiaries. 10 For example, when one therapist
provides group therapy to four beneficiaries for 60 minutes, the SNF counts all
60 minutes when determining each beneficiary’s RUG.

As a result of the new requirement to divide concurrent therapy minutes among
beneficiaries, CMS expected a decrease in SNF billing for higher levels of therapy in
FY 2011. 11 CMS did not intend the changes implemented in FY 2011 to decrease overall
payments to SNFs. 12 As a result, CMS increased the per diem payment rate for each
level of therapy beginning in FY 2011. For example, CMS increased the average per
diem rate for ultra high therapy RUGs from $528 in FY 2010 to $699 in FY 2011, a
32-percent increase. See Table 1 for the average per diem rates for each level of therapy.

    Table 1: Average Amount That Medicare Pays SNFs per Diem for Each Level of
    Therapy, FYs 2010 and 2011

                              Number of Therapy                Average           Average           Percentage
                                Minutes Provided              per Diem          per Diem        Increase From
    Level of Therapy
                              During Assessment               Payment           Payment             FY 2010 to
                                          Period               FY 2010           FY 2011              FY 2011

    Low                                    45 to 149                $288             $430                    49%
    Medium                                150 to 324                $369             $488                    32%
    High                                  325 to 499                $364             $532                    46%
    Very high                             500 to 719                $418             $594                    42%
    Ultra high                           720 or more                $528             $699                    32%
    Source: OIG analysis of unadjusted per diem urban rates for FYs 2010 and 2011. See 74 Fed. Reg. 40288,
    40298–40299 (Aug. 11, 2009) and 75 Fed. Reg. 42886, 42894–42895 (Jul. 22, 2010).


Medicare Payments for Extensive Services
Extensive services include tracheostomy care, the use of a ventilator or respirator, and
infection isolation. Two categories of RUGs include extensive services: Rehabilitation
Plus Extensive Services, which includes therapy; and Extensive Services, which does not
include therapy. Beginning in FY 2011, CMS substantially narrowed the definition of
extensive services. 13 It made this change because it found that many of the beneficiaries

9
  Effective FY 2011, SNFs were also required to report how many minutes of each type of therapy were provided to
each beneficiary. In contrast, prior to FY 2011, SNFs only reported the total number of therapy minutes provided to
each beneficiary. Compare CMS, RAI Manual 3.0, ch. 3, § O0400 with CMS, Long-Term Care Facility Resident
Assessment Instrument User’s Manual 2.0 (RAI Manual 2.0), Dec. 2002, revised Dec. 2008, ch. 3, § P1.b.
10
   During both FYs 2010 and 2011, CMS limited group therapy to 25 percent of the total therapy provided to each
beneficiary. See CMS, RAI Manual 3.0, § 6.6, and RAI Manual 2.0, ch. 3, § P2.b.
11
   For example, in FY 2010, if a beneficiary received 320 minutes of individual therapy and 400 minutes of concurrent
therapy, this beneficiary was categorized into an ultra high therapy RUG (320 + 400 = 720 minutes). In contrast, in
FY 2011, this same beneficiary is categorized into a very high therapy RUG (320 + 400/2 = 520 minutes).
12
   74 Fed. Reg. 40288, 40338–40339 (Aug. 11, 2009).
13
   Compare CMS, RAI Manual 3.0, § 6.6 with RAI Manual 2.0, § 6.6.



OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 5 – Donald M. Berwick, M.D.


previously classified as needing extensive services required fewer resources than
expected. 14

Medicare Payments for Assistance With ADLs
RUGs are further divided by the amount of assistance a beneficiary needs with certain
ADLs. 15 As part of the assessment, SNFs assign each beneficiary an ADL score based on
how much assistance he or she needs with certain ADLs, such as eating. If a beneficiary
needs high levels of assistance, he or she is categorized into a RUG with high ADL scores,
whereas a beneficiary who needs less assistance is categorized into a RUG with lower ADL
scores. 16 Medicare pays higher rates for RUGs with high ADL scores than for RUGs with
lower ADL scores. In FY 2011, CMS changed both how the ADL score was calculated and
the range of ADL scores associated with each RUG. 17

Other Changes to the SNF Payment System
CMS made several other changes to the SNF payment system. Prior to FY 2011, during
a beneficiary’s first assessment, SNFs were allowed to place the beneficiary in a therapy
RUG based on scheduled (but not yet provided) therapy. Beginning in FY 2011, CMS no
longer allowed this, explaining that studies indicated that SNFs were often overpaid
because beneficiaries did not always receive the level of therapy that was scheduled.
Instead, in FY 2011, CMS introduced an optional start-of-therapy assessment, which
allows SNFs to recalculate a beneficiary’s RUG if therapy was started later during the
stay. 18 Additionally, prior to FY 2011, CMS allowed SNFs to wait 8 to 10 days to
conduct an end-of-therapy assessment after all therapy was discontinued. Beginning in
FY 2011, CMS required SNFs to conduct this assessment within 1 to 3 days. 19

METHODOLOGY

We based this study on information from: (1) all paid Part A SNF claims from the last
half of FY 2010 through the first half of FY 2011 and (2) MDS beneficiary assessment
data from the same period. 20

We first identified the universe of paid Part A SNF claims from the last half of FY 2010
(April 1 to September 30, 2010) and the first half of FY 2011 (October 1, 2010, to

14
   74 Fed. Reg. 22208, 22230–22231 (May 12, 2009).
15
   The one exception is the Extensive Services category. The RUGs in this category are not divided by the amount of
assistance a beneficiary needs with ADLs.
16
   Each RUG is associated with a range of ADL scores. Within each category, we refer to the RUGs with the highest
range of ADL scores as RUGs with high ADL scores. For example, for the Clinically Complex category, we consider
the two RUGs with ADL scores ranging from 15 to 16 to be RUGs with high ADL scores.
17
   Compare CMS, RAI Manual 3.0, § 6.6 with RAI Manual 2.0, § 6.6.
18
   74 Fed. Reg. 40288, 40346–40349 (Aug. 11, 2009), 74 Fed. Reg. 22208, 22244–22246 (May 12, 2009), and CMS,
RAI Manual 3.0, § 2.8.
19
   While SNFs are required to recalculate the RUG after all therapy is discontinued, they are not required to recalculate
the RUG when the beneficiary’s level of therapy changes substantially.
20
   The CMS claims data were obtained from the Services Tracking Analysis and Reporting System. These data
included all claims with processing dates before June 1, 2011.



OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 6 – Donald M. Berwick, M.D.


March 31, 2011). 21 For each 6-month period, we calculated the total amount billed—both
for therapy and nontherapy RUGs.

Next, we compared the distributions of the RUGs for each period. 22 Specifically, we
determined the percentages of RUGs billed for each level of therapy for both periods. For
this analysis, we combined the data from the two therapy categories—Rehabilitation and
Rehabilitation Plus Extensive Services—to determine how often SNFs billed for each of the
different therapy levels: ultra high, very high, high, medium, and low.

Next, for first half of FY 2011, we used MDS data to determine the extent to which SNFs
billed for each type of therapy: concurrent, group, and individual. 23 Because SNFs did not
have to report this information prior to FY 2011, we compared these data to CMS’s
expected use of each type of therapy. CMS based its expectations on the Staff Time and
Resource Intensity Verification (STRIVE) study, which found that about three-quarters of
therapy was provided individually, one-quarter was provided concurrently, and less than
1 percent was provided in a group setting. 24

Lastly, we determined the percentage of RUGs billed for extensive services. We did this
analysis separately for extensive services with and without therapy. We also analyzed how
often SNFs billed for RUGs with high ADL scores. We compared this information for the
two periods to determine whether there were any differences.

This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Medicare Payments to SNFs Increased by $2.1 Billion From the Last Half of
FY 2010 to the First Half of FY 2011
CMS made several changes to how Medicare paid SNFs for Part A stays in FY 2011.
While CMS intended these changes to be budget neutral, overall payments to SNFs
instead increased significantly. As shown in Table 2, payments to SNFs rose from
$12.7 billion during the last half of FY 2010 to $14.8 billion during the first half of
FY 2011, an increase of 16 percent. The total increase of $2.1 billion was primarily due
to payments for therapy RUGs, which rose by $1.8 billion. In contrast, payments for
nontherapy RUGs increased by $0.2 billion.



21
   In this report, we refer to claim line items as claims.
22
   We based our analysis on the RUGs that SNFs submitted on the claims. A RUG from a beneficiary’s assessment
may span two claims. In this report, we count this as one RUG.
23
   For example, to determine the use of concurrent therapy, we summed the minutes of concurrent therapy reported by
SNFs for all beneficiaries and divided by the total number of minutes reported for all therapy.
24
   The STRIVE study was conducted by the Iowa Foundation for Medical Care under contract with CMS. Data were
collected in 2006 and 2007. See https://www.qtso.com/strive.html. Accessed on May 2, 2011.



OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 7 – Donald M. Berwick, M.D.



             Table 2: Change in Medicare Payments From the Last Half of FY 2010
             to the First Half of FY 2011

                                                    Total Medicare Payments
             Type of RUG                                                                     Difference in
                                          Last Half of FY 2010     First Half of FY 2011       Payments*

             Therapy                               $12.2 billion            $14.0 billion      $1.8 billion
             Nontherapy                             $0.6 billion             $0.8 billion      $0.2 billion
               Total*                             $12.7 billion            $14.8 billion      $2.1 billion
             * Payments may not subtract to the difference and sum to the total because of rounding.
             Source: OIG analysis of Part A SNF claims, 2011.


SNF billing for higher-paying therapy RUGs increased, which CMS did not anticipate.
Medicare pays more for RUGs in which the beneficiary receives higher levels of therapy.
CMS expected that the changes implemented in FY 2011 would result in a decrease in
SNF billing for higher levels of therapy. However, contrary to what CMS expected,
billing for higher levels of therapy actually increased in the first half of FY 2011,
compared to the last half of FY 2010.

As shown in Table 3, billing for ultra high therapy increased by almost 2 percentage
points and billing for high and very high therapy each increased by about 4 percentage
points. At the same time, billing for medium therapy decreased by nearly 10 percentage
points. Notably, billing for the three highest levels of therapy increased from the first to
the second quarter of FY 2011.

Table 3: Change in Billing For Each Level of Therapy From the Last Half of FY 2010 to
the First Half of FY 2011
                                                                                                 Percentage Point
Level of Therapy                       Last Half of FY 2010          First Half of FY 2011
                                                                                                         Change*
Low                                                    0.2%                          0.2%                     0.1
Medium                                                20.6%                         11.1%                     -9.5
High                                                   9.2%                         13.1%                     3.9
Very high                                             26.2%                         30.2%                     4.1
Ultra high                                            43.8%                         45.4%                     1.5
  Total                                               100%                          100%

* Percentage differences do not subtract to percentage point change because of rounding.
Source: OIG analysis of Part A SNF claims, 2011.


SNFs billed for less concurrent therapy than CMS expected. CMS changed how SNFs
must account for therapy provided concurrently. Beginning in FY 2011, SNFs were
required to divide concurrent therapy minutes among beneficiaries. As a result of this
new requirement, CMS expected a decrease in the number of therapy minutes billed per
beneficiary and a decrease in the levels of therapy billed. Instead, SNFs billed for far less




OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 8 – Donald M. Berwick, M.D.


concurrent therapy in FY 2011 than CMS expected and the anticipated shift to lower
levels of therapy did not occur.

As shown in Table 4, when CMS determined the reimbursement rates for SNFs during
FY 2011, it assumed that SNFs’ use of concurrent therapy would be approximately
25 percent of all therapy. However, during the first half of FY 2011, less than 1 percent
of all therapy minutes were for concurrent therapy. Furthermore, SNFs’ use of
concurrent therapy decreased each month, from 1.4 percent in October 2010 to
0.7 percent in March 2011.


      Table 4: The Use of Each Type of Therapy, as Expected by CMS and as Billed
      During the First Half of FY 2011
                                                                                        Percentage Point
      Type of Therapy                     Expected by CMS*      First Half of FY 2011
                                                                                              Difference
      Concurrent                                       25.3%                   0.9%                -24.4
      Group                                             0.5%                   7.7%                  7.2
      Individual                                       74.1%                  91.4%                 17.3
        Total                                         100%**                   100%
      * CMS’s expectations are based on the STRIVE study.
      ** Percentages do not sum to total because of rounding.
      Source: OIG analysis of MDS data, 2011.

SNFs billed for more group and individual therapy than CMS expected. While the use of
concurrent therapy was much lower than expected, the use of both group and individual
therapy was much higher than expected in the first half of FY 2011. CMS expected
group therapy to account for less than 1 percent of all therapy. However, during the first
half of FY 2011, SNF billing for group therapy accounted for nearly 8 percent of all
therapy. Lastly, CMS expected individual therapy to amount to about three-quarters of
therapy; however, in the first half of FY 2011, individual therapy was about 91 percent of
all therapy.

Although Medicare Payments to SNFs Increased Overall, Several of CMS’s
Changes Reduced Billing for Certain Higher-Paying RUGs

Overall, billing for therapy RUGs decreased slightly from the last half of FY 2010 to the
first half of FY 2011. Medicare pays SNFs more than 1½ times as much for therapy
RUGs, on average, as it does for nontherapy RUGs. Billing for therapy RUGs decreased
from 89 percent of all RUGs during the last half of FY 2010 to 86 percent during the first
half of FY 2011.

Two changes in FY 2011 likely contributed to this shift toward nontherapy RUGs. First,
in FY 2011, SNFs were no longer allowed to bill for therapy RUGs based on scheduled
(but not yet provided) therapy. Second, in FY 2011, SNFs were required to recalculate a



OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 9 – Donald M. Berwick, M.D.


beneficiary’s RUG within 1 to 3 days after all therapy was discontinued, rather than
8 to 10 days. As a result, SNFs’ use of these end-of-therapy assessments increased from
1.7 percent during the last half of FY 2010 to 2.8 percent during the first half of FY 2011.

Billing for extensive services decreased substantially from the last half of FY 2010 to the
first half of FY 2011. Medicare pays more for RUGs in which the beneficiary requires
extensive services than it does for RUGs in which the beneficiary does not require
extensive services. In FY 2011, CMS substantially narrowed the definition of extensive
services, which likely decreased billing for these RUGs.

As shown in Table 5, SNFs significantly reduced their billing for extensive services.
Billing for therapy RUGs with extensive services decreased from nearly 42 percent of all
RUGs during the last half of FY 2010 to less than 3 percent of all RUGs during the first
half of FY 2011. Additionally, billing for nontherapy RUGs with extensive services
decreased from about 4 percent to less than 1 percent of all RUGs.


            Table 5: Change in Billing for RUGs That Include Extensive
            Services From the Last Half of FY 2010 to the First Half of FY 2011
            Type of RUG                       Last Half of FY 2010     First Half of FY 2011

            Therapy RUGs
            With Extensive Services                            41.7%                  2.7%
            Without Extensive Services                         47.3%                 83.3%
            Nontherapy RUGs
            With Extensive Services                            4.2%                   0.7%
            Without Extensive Services                         6.9%                  13.3%
              Total                                            100%                   100%
            Source: OIG analysis of Part A SNF claims, 2011.


Billing for RUGs with high ADL scores decreased from the last half of FY 2010 to the
first half of FY 2011. In general, Medicare pays more for RUGs with high ADL scores
than for RUGs with lower ADL scores. In FY 2011, CMS changed how the ADL score
was calculated and the range of ADL scores associated with each RUG; these changes
likely contributed to SNFs’ decreased use of RUGs with high ADL scores.

Billing for therapy RUGs with high ADL scores decreased from 35 percent during the
last half of FY 2010 to 30 percent during the first half of FY 2011. At the same time,
beneficiaries’ need for assistance with ADLs did not change, on average. The average
ADL score was 13 during the last half of FY 2010 and, applying the FY 2010 rules,
remained 13 during the first half of FY 2011.




OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 10 – Donald M. Berwick, M.D.


Current Timeframes for When SNFs May Calculate a Beneficiary’s RUG May Lead
to Inaccuracies
SNFs must calculate a beneficiary’s RUG on or about the 5th, 14th, 30th, 60th, and 90th day
of a Part A stay, as well as when changes in the beneficiary’s care needs occur. SNFs
gather information about the beneficiary during an assessment period to determine the
beneficiary’s RUG. CMS specifies timeframes for the last day of assessment periods.
For example, SNFs must set the last day of the assessment period sometime between the
11th and the 19th day of a stay for the beneficiary’s second assessment.

Currently, a beneficiary’s assessment periods can overlap substantially. During the first
half of FY 2011, 43 percent of RUGs had a 7-day assessment period that overlapped with
another RUG’s assessment period by at least 3 days. This was an increase of
4 percentage points from the last half of FY 2010. This overlap typically occurred when
SNFs chose the 8th day of the stay as the end of the beneficiary’s first assessment, and
then chose the 11th day as the end of the second assessment. In these cases, the two
assessment periods overlapped by 4 days. When SNFs use overlapping assessment
periods, the same information is used to calculate two different RUGs. This may lead to
inaccuracies in the assessment of beneficiaries’ changing needs and the corresponding
RUGs.

CONCLUSION

In FY 2011, CMS made a number of changes to the SNF payment system. In particular,
CMS changed how SNFs bill for concurrent therapy. CMS expected this change to
decrease billing for higher levels of therapy. Because CMS did not intend to decrease
overall payments to SNFs, it increased the payment rates for therapy. CMS also changed
how SNFs bill for extensive services and for assistance with ADLs.

Although CMS intended the FY 2011 changes to be budget neutral, Medicare payments
increased by $2.1 billion, or 16 percent, from the last half of FY 2010 to the first half of
FY 2011. Contrary to CMS’s expectations, in the first half of FY 2011, SNFs billed for
higher levels of therapy and for very little concurrent therapy. These unanticipated
billing patterns contributed to the increase in payments. At the same time, several of
CMS’s changes reduced billing for certain higher-paying RUGs. Between the last half of
FY 2010 and the first half of FY 2011, billing decreased slightly for therapy overall.
Billing for extensive services and for RUGs with high ADL scores also decreased.

These data indicate that CMS should adjust payment rates to address the significant
increases in payments to SNFs. Given the current trends, Medicare will pay over
$4 billion more to SNFs in FY 2011 than in FY 2010. In addition, the data show that
CMS should make changes to how SNFs account for group therapy. Currently, SNFs
have a financial incentive to choose group therapy over individual or concurrent therapy.
By better aligning Medicare payments to SNFs’ expenditures for each type of therapy,
SNFs will more likely choose the type of therapy that best meets the beneficiary’s needs.


OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 11 – Donald M. Berwick, M.D.


Lastly, the data highlight the need for further changes to make RUGs and Medicare
payments more consistent with beneficiaries’ care and resource needs. These changes
could include requiring SNFs to recalculate a beneficiary’s RUG whenever his or her
level of therapy changes substantially, as well as reducing the overlap that occurs in
assessment periods.

We plan to conduct a full review of SNF billing at the end of FY 2011 and may issue
formal recommendations to CMS at that time. However, based on the data in this report,
CMS should take immediate action. CMS has proposed a number of changes to the SNF
payment system and will issue a final rule for FY 2012. 25 CMS should use this
opportunity to address the issues identified in this memorandum report.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-02-09-00204 in all correspondence.




25
     76 Fed. Reg. 26364, 26364–26429 (May 6, 2011).



OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 12 – Donald M. Berwick, M.D.




APPENDIX A

                                       Therapy RUGs

                                                           Range of ADL
 RUG                 RUG Code                                                    Per Diem Rate
                                      Therapy Level           Scores
 Category
                  FY 2010   FY 2011                      FY 2010    FY 2011    FY 2010   FY 2011
                     RUX        RUX         Ultra high   16 to 18   11 to 16     $617      $869
                     RUL        RUL         Ultra high    7 to 15    2 to 10     $546      $847
                     RVX        RVX         Very high    16 to 18   11 to 16     $468      $787
                     RVL        RVL         Very high     7 to 15    2 to 10     $437      $698
 Rehabilitation
 Plus Extensive      RHX        RHX              High    13 to 18   11 to 16     $396      $723
 Services
                     RHL        RHL              High     7 to 12    2 to 10     $386      $638
                    RMX        RMX           Medium      15 to 18   11 to 16     $449      $668
                     RML        RML          Medium       7 to 14    2 to 10     $413      $611
                     RLX        RLX              Low      7 to 18    2 to 16     $319      $594
                    RUC        RUC          Ultra high   16 to 18   11 to 16     $529      $634
                     RUB        RUB         Ultra high    9 to 15    6 to 10     $485      $634
                     RUA        RUA         Ultra high     4 to 8     0 to 5     $463      $513
                     RVC        RVC         Very high    16 to 18   11 to 16     $421      $552
                     RVB        RVB         Very high     9 to 15    6 to 10     $401      $468
                     RVA        RVA         Very high      4 to 8     0 to 5     $364      $466
                    RHC        RHC               High    13 to 18   11 to 16     $365      $488
 Rehabilitation
                     RHB        RHB              High     8 to 12    6 to 10     $349      $434
                     RHA        RHA              High      4 to 7     0 to 5     $326      $376
                    RMC        RMC           Medium      15 to 18   11 to 16     $335      $435
                    RMB        RMB           Medium       8 to 14    6 to 10     $326      $403
                    RMA        RMA           Medium        4 to 7     0 to 5     $320      $324
                     RLB        RLB              Low     14 to 18   11 to 16     $294      $431
                     RLA        RLA              Low      4 to 13    0 to 10     $252      $264




OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 13 – Donald M. Berwick, M.D.


APPENDIX A (Continued)

                                    Nontherapy RUGs

                                                  Range of ADL
     RUG Category             RUG Code                                 Per Diem Rate
                                                     Scores
                          FY 2010     FY 2011   FY 2010    FY 2011    FY 2010   FY 2011
                             SE3          ES3    7 to 18    2 to 16     $361      $661
     Extensive Services      SE2          ES2    7 to 18    2 to 16     $309      $518
                             SE1          ES1    7 to 18    2 to 16     $276      $463
                             SSC                17 to 18                $272
     Special Care            SSB                15 to 16                $258
                             SSA                 4 to 14                $253
                                         HE2               15 to 16               $447
                                         HE1               15 to 16               $371
                                         HD2               11 to 14               $418
                                         HD1               11 to 14               $349
     Special Care High
                                         HC2                6 to 10               $394
                                         HC1                6 to 10               $330
                                         HB2                 2 to 5               $390
                                         HB1                 2 to 5               $327
                                          LE2              15 to 16               $406
                                          LE1              15 to 16               $339
                                          LD2              11 to 14               $390
                                          LD1              11 to 14               $327
     Special Care Low
                                          LC2               6 to 10               $342
                                          LC1               6 to 10               $289
                                          LB2                2 to 5               $325
                                          LB1                2 to 5               $276
                             CC2         CE2    17 to 18   15 to 16     $270      $361
                             CC1         CE1    17 to 18   15 to 16     $248      $333
                             CB2         CD2    12 to 16   11 to 14     $236      $342
                             CB1         CD1    12 to 16   11 to 14     $225      $314
                             CA2         CC2     4 to 11    6 to 10     $223      $300
     Clinically Complex
                             CA1         CC1     4 to 11    6 to 10     $211      $278
                                         CB2                 2 to 5               $278
                                         CB1                 2 to 5               $257
                                         CA2                 0 to 1               $235
                                         CA1                 0 to 1               $219




OEI-02-09-00204 Changes in SNF Billing in FY 2011
Page 14 – Donald M. Berwick, M.D.


APPENDIX A (Continued)


                                    Nontherapy RUGs (continued)

                                                                 Range of ADL
                                          RUG Code                                       Per Diem Rate
   RUG Category                                                     Scores
                                     FY 2010      FY 2011     FY 2010     FY 2011     FY 2010     FY 2011
                                           IB2                  6 to 10                   $202
                                           IB1                  6 to 10                   $199
   Impaired Cognition
                                           IA2                   4 to 5                   $183
                                           IA1                   4 to 5                   $177
   Behavior Problems                      BB2          BB2      6 to 10      2 to 5       $200        $249
   (RUG-III)
                                          BB1          BB1      6 to 10      2 to 5       $196        $238
   Behavioral Symptoms and                BA2          BA2       4 to 5      0 to 1       $182        $207
   Cognitive Performance
   (RUG IV)                               BA1          BA1       4 to 5      0 to 1       $169        $197
                                          PE2          PE2     16 to 18    15 to 16       $217        $333
                                          PE1          PE1     16 to 18    15 to 16       $214        $317
                                          PD2          PD2     11 to 15    11 to 14       $206        $314
                                          PD1          PD1     11 to 15    11 to 14       $203        $298
                                          PC2          PC2      9 to 10     6 to 10       $197        $270
   Reduced Physical Function
                                          PC1          PC1      9 to 10     6 to 10       $196        $257
                                          PB2          PB2       6 to 8      2 to 5       $175        $229
                                          PB1          PB1       6 to 8      2 to 5       $172        $219
                                          PA2          PA2       4 to 5      0 to 1       $171        $189
                                          PA1          PA1       4 to 5      0 to 1       $166        $181
  Source: OIG analysis of unadjusted per diem urban rates for FYs 2010 and 2011. See 74 Fed. Reg. 40288,
  40298–40299 (Aug. 11, 2009) and 75 Fed. Reg. 42886, 42894–42895 (Jul. 22, 2010).




OEI-02-09-00204 Changes in SNF Billing in FY 2011
